<html>
<title> - NOMINATIONS OF R. GIL KERLIKOWSKE, L. PAIGE MARVEL, AND TAMARA WENDA ASHFORD</title>
<body><pre>[Senate Hearing 113-381]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-381
 
 NOMINATIONS OF R. GIL KERLIKOWSKE, L. PAIGE MARVEL, AND TAMARA WENDA 
                                ASHFORD 

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

R. GIL KERLIKOWSKE, TO BE COMMISSIONER, CUSTOMS AND BORDER PROTECTION, 
               DEPARTMENT OF HOMELAND SECURITY; L. PAIGE 
MARVEL, TO BE A JUDGE OF THE UNITED STATES TAX COURT; AND TAMARA WENDA 
         ASHFORD, TO BE A JUDGE OF THE UNITED STATES TAX COURT

                               __________

                            JANUARY 15, 2014

                               __________

                                   
            Printed for the use of the Committee on Finance

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

89-640 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




                          COMMITTEE ON FINANCE

                     MAX BAUCUS, Montana, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
RON WYDEN, Oregon                    MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         PAT ROBERTS, Kansas
DEBBIE STABENOW, Michigan            MICHAEL B. ENZI, Wyoming
MARIA CANTWELL, Washington           JOHN CORNYN, Texas
BILL NELSON, Florida                 JOHN THUNE, South Dakota
ROBERT MENENDEZ, New Jersey          RICHARD BURR, North Carolina
THOMAS R. CARPER, Delaware           JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         ROB PORTMAN, Ohio
SHERROD BROWN, Ohio                  PATRICK J. TOOMEY, Pennsylvania
MICHAEL F. BENNET, Colorado
ROBERT P. CASEY, Jr., Pennsylvania

                      Amber Cottle, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Baucus, Hon. Max, a U.S. Senator from Montana, chairman, 
  Committee on Finance...........................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     3
Cantwell, Hon. Maria, a U.S. Senator from Washington.............     5
Cardin, Hon. Benjamin L., a U.S. Senator from Maryland...........     7

                         CONGRESSIONAL WITNESS

Murray, Hon. Patty, a U.S. Senator from Washington...............     6

                        ADMINISTRATION NOMINEES

Kerlikowske, R. Gil, nominated to be Commissioner, Customs and 
  Border Protection, Department of Homeland Security, Washington, 
  DC.............................................................     8
Marvel, Hon. L. Paige, nominated to be a judge of the United 
  States Tax Court, Washington, DC...............................    10
Ashford, Tamara Wenda, nominated to be a judge of the United 
  States Tax Court, Washington, DC...............................    12

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Ashford, Tamara Wenda:
    Testimony....................................................    12
    Prepared statement...........................................    33
    Biographical information.....................................    35
    Response to a question from Senator Hatch....................    47
Baucus, Hon. Max:
    Opening statement............................................     1
    Prepared statement...........................................    48
Cantwell, Hon. Maria:
    Opening statement............................................     5
Cardin, Hon. Benjamin L.:
    Opening statement............................................     7
Hatch, Hon. Orrin G.:
    Opening statement............................................     3
    Prepared statement...........................................    50
Kerlikowske, R. Gil:
    Testimony....................................................     8
    Prepared statement...........................................    52
    Biographical information.....................................    56
    Responses to questions from committee members................    69
Marvel, Hon. L. Paige:
    Testimony....................................................    10
    Prepared statement...........................................   106
    Biographical information.....................................   108
    Response to a question from Senator Hatch....................   121
Murray, Hon. Patty:
    Testimony....................................................     6

                             Communication

United States Council for International Business (USCIB).........   123


                   NOMINATIONS OF R. GIL KERLIKOWSKE,
                   TO BE COMMISSIONER, CUSTOMS AND
                     BORDER PROTECTION, DEPARTMENT
                        OF HOMELAND SECURITY;



   L. PAIGE MARVEL, TO BE A JUDGE OF THE UNITED STATES TAX COURT; AND


                  TAMARA WENDA ASHFORD, TO BE A JUDGE


                     OF THE UNITED STATES TAX COURT

                              ----------                              


                      WEDNESDAY, JANUARY 15, 2014

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:12 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Max 
Baucus (chairman of the committee) presiding.
    Present: Senators Schumer, Cantwell, Nelson, Menendez, 
Carper, Cardin, Casey, Hatch, Grassley, Crapo, Thune, and Burr.
    Also present: Democratic Staff: Amber Cottle, Staff 
Director; Laurie Dempsey, Detailee; Jason Park, International 
Trade Counsel; Rory Murphy, International Trade Analyst; Mac 
Campbell, General Counsel; Tiffany Smith, Tax Counsel; and Andy 
Heiman, Tax Policy and Nominations Advisor. Republican Staff: 
Chris Campbell, Staff Director; Rebecca Eubank, International 
Trade Analyst; Richard Chovanec, Detailee; Everett Eissensat, 
Chief International Trade Counsel; Nicholas Wyatt, Tax and 
Nominations Professional Staff Member; and Alex Brant, 
Detailee.

   OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM 
            MONTANA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The hearing will come to order.
    Senator Henry Clay, who was the chairman of this committee 
in 1841, once said this, and I quote him: ``Government is a 
trust, and the officers of the government are trustees--and 
both the trust and the trustees are created for the benefits of 
the people.''
    The three individuals here today are dedicated public 
servants, trustees working hard for the benefit of the people. 
They are experts in their fields, and, if confirmed, they will 
bring an impressive array of diversity and experience to the 
job at hand.
    Gil Kerlikowske has been nominated to serve as Commissioner 
of the United States Customs and Border Protection, often 
referred to as CBP. This agency enforces the country's trade 
and border security laws. If confirmed, Mr. Kerlikowske will be 
entrusted with developing policy that has broad effects on 
America's economy and safety, a charge he is highly qualified 
to execute.
    Mr. Kerlikowske has spent his career in public policy and 
law enforcement, most recently, as Director of the Office of 
National Drug Control Policy. Before that, he served as Chief 
of Police in Seattle. His decades of experience will help 
ensure our Nation's borders are secure, flexible, and utilizing 
the latest technologies.
    This committee has jurisdiction over international trade, 
and CBP plays a crucial role in maintaining the flow of trade 
across our borders. CBP processes nearly $2.5 trillion worth of 
goods every year, and it must ensure this process is thorough 
and efficient. CBP's director must consult regularly with 
Congress, Federal agencies, and the many businesses that rely 
on trade. This committee takes CBP's mandate to consult with 
Congress very seriously.
    Senator Hatch and I introduced a Customs reauthorization 
bill last year. The bill is intended to help CBP prioritize its 
trade facilitation and enforcement functions, and it provides 
additional tools and resources to help the Commissioner do so. 
If Mr. Kerlikowske is confirmed, close communication with this 
committee will be important.
    Also with us today are Tamara Ashford and Paige Marvel. 
Both are nominated to serve as judges on the United States Tax 
Court. Judge Marvel, in fact, has been nominated to serve for a 
second term.
    The Tax Court gives Americans a venue and a voice to 
address legitimate tax concerns. It helps guarantee fair 
administration of our tax laws and hears 30,000 cases each 
year. It is a cornerstone of America's tax system.
    Judges must be willing to put in long hours and endure a 
busy travel schedule. They hear cases in 74 cities across our 
country, and they spend weeks at a time away from their homes 
and families. The job is difficult, but Ms. Ashford and Judge 
Marvel are the right people to take it on.
    Prior to joining the Court, Judge Marvel had a 
distinguished career in the private sector, and she has proven 
herself on the Tax Court and deserves support for her second 
term.
    Ms. Ashford currently serves as the Deputy Assistant 
Attorney General for Appellate and Review in the Tax Division 
at the U.S. Department of Justice. She has a sterling track 
record of public service that she will carry with her to the 
Tax Court, including at the IRS and the Department of Justice. 
And like Judge Marvel, she has valuable experience in the 
private sector.
    With their confirmations, the Tax Court will have a full 
complement of 19 judges for the first time since 1999. So, as 
we consider these nominations, let us remember Henry Clay's 
words that ``Government is a trust, and the officers of the 
government are trustees working for the benefit of the 
people.''
    I thank all three nominees for joining us here today, and I 
hope the committee can act on their nominations quickly.
    During today's hearing, we will also pause to vote on two 
nominations: Sarah Bloom Raskin, nominated to be the Deputy 
Secretary of the Treasury; as well as Rhonda Schmidtlein, 
nominated to be a Commissioner at the International Trade 
Commission. When we get a quorum, we are going to take a short 
break so we can vote on those nominees.
    [The prepared statement of Chairman Baucus appears in the 
appendix.]
    The Chairman. Senator Hatch?

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Thank you, Mr. Chairman. Thank you for 
holding today's hearing.
    Trade is essential to the growth of the U.S. economy, and 
U.S. Customs and Border Protection, CBP, is at the center of 
ensuring that legitimate trade flows smoothly and efficiently. 
This task goes all the way back to 1789, when the first 
Congress created the first agency of the Federal Government 
with the responsibility of collecting import duties. This first 
U.S. Customs agency would go on to come under the direct 
authority of the Secretary of the Treasury.
    Following passage of the Homeland Security Act of 2002, CBP 
was created and is the unified border agency with the dual 
missions of facilitating trade and securing our borders against 
terrorism. These missions are performed by a workforce of 
almost 60,000 dedicated Federal employees. And with these 
important missions, it is vital that CBP has the proper 
leadership in place. That starts with the head of the agency.
    Unfortunately, CBP has been without a Senate-confirmed 
commissioner since 2009. Last year, I called upon President 
Obama to nominate a commissioner and to appoint someone with a 
strong background in trade.
    Mr. Kerlikowske, your background is in law enforcement and 
not in trade. However, from our conversations, I am confident 
that if you are confirmed, and I expect you to be, your lack of 
a trade background will not prevent you from making sure that 
the trade functions of CBP receive the same priority as the 
security functions.
    Now, I think you recognize that trade is essential to the 
growth of our economy and that a strong economy is essential to 
our Nation's security. In addition to trade, intellectual 
property is also an important part of the U.S. economy. 
Therefore, I will continue to support CBP's efforts to ensure 
that strong enforcement of our Nation's intellectual property 
laws remains a high priority for the agency.
    In March of last year, Senator Baucus and I introduced the 
Trade Facilitation and Trade Enforcement Reauthorization Act of 
2013. If enacted, our bill would help to modernize CBP by 
making sure that it has the authority and tools necessary to 
carry out its trade facilitation mission.
    We have received good feedback on the bill, and I hope the 
Finance Committee will be able to consider our legislation very 
soon.
    Mr. Kerlikowske, if confirmed, I hope that you will work 
closely with this committee to ensure that CBP fulfills its 
proper role in facilitating and promoting trade.
    Now, having said that, the United States Tax Court does not 
go quite as far back in our history as the first U.S. Customs 
agency, but it is a very, very important part of our tax 
system. It is the only venue for taxpayers who want to 
challenge an assessed tax liability before payment.
    Unlike many Federal Government entities, the Tax Court goes 
wherever the taxpayers are, with judges hearing cases in many 
cities throughout the country. Tax Court judges deal with the 
individual taxpayers face-to-face and actually speak to and 
hear from them in person. Very few nominees that we consider in 
this committee will have that kind of interaction. Keeping the 
Court staffed with qualified judges helps provide faster and 
better accountability to taxpayers. If both of the nominees we 
will hear from today are confirmed, the Tax Court will have a 
full complement of 19 judges.
    Judge Marvel, having already completed one term on the Tax 
Court, has fortunately agreed to serve a second term. The 
Finance Committee has consistently encouraged the reappointment 
of Tax Court judges in order to preserve expertise and 
continuity in what is a very complicated area of policy. This 
is not to say that new judges are not important or welcome, of 
course, but experience is valuable.
    Tamara Ashford already has extensive experience in the tax 
arena, having worked a great deal in private practice for the 
Internal Revenue Service and now for the Tax Division at the 
Justice Department. As she noted in a speech that she gave last 
year, she has seen tax practice from both sides of the table. I 
think that is important too.
    Indeed, I think we have before us two very qualified Tax 
Court nominees, and I expect both of you to be confirmed 
quickly.
    Mr. Chairman, I want to thank you once again for holding 
this hearing, and I look forward to hearing from all of our 
nominees here today.
    The Chairman. Thank you, Senator, very much.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. Our first witness, Gil Kerlikowske, is 
nominated to be Commissioner of U.S. Customs and Border 
Protection.
    Mr. Kerlikowske, here is an opportunity now to introduce 
your family. Then Senator Cantwell and Senator Murray will also 
introduce you.
    First, I am going to let Mr. Kerlikowske introduce his 
family, and then Senator Murray and Senator Cantwell will 
speak.
    Mr. Kerlikowske. Thank you, Mr. Chairman.
    My daughter Kim is here. She lives in Colorado with her 
husband and my grandchildren. She is a teacher. Unfortunately, 
my wife, Anna, could not be here, having been teaching in 
Florida this week rather than here in Washington, DC.
    The Chairman. Thank you very much.
    Would you please stand so we can recognize you? [Applause.]
    Mr. Kerlikowske, you confirm one of my theories, which is, 
if you show me an achiever, I will show you there is a teacher 
in the family.
    Senator Cantwell?
    Senator Cantwell. Well, I see my colleague, Senator Murray, 
is at the dais. Did you want to go ahead?
    Senator Murray. I can wait for you. You go ahead.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                 A U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman and Ranking 
Member Hatch. I am very pleased to introduce to the Finance 
Committee Director Kerlikowske, and I urge my colleagues to 
confirm him for this position as quickly as possible.
    Many of you know or may know Mr. Kerlikowske, because he 
got 91 votes in the United States Senate for his current role 
as Director of the Office of National Drug Control Policy.
    I have known him for more than a decade, and, throughout 
those years in law enforcement, he has a demonstrated and 
impressive record of exceptional management and leadership 
skills.
    As Gil was the Chief of the Seattle Police Department for 
over 8 years, he was a leader in a community that worked 
collaboratively with local, State, and Federal agencies and 
organizations.
    Many of you may know that Seattle is home to one of the 
largest ports and gateways for international trade. In fact, 70 
percent of Seattle's container cargo comes or goes to the 
region of the country outside the Pacific Northwest. So 
Washington State exports were valued at $75.6 billion in 2012. 
So needless to say, Customs, border, and security issues are a 
very important part of our economy, and anyone who has worked 
in that region knows how important that coordination is.
    It has been good news that our trade deficit has been 
narrowing in recent months, but an important ability necessary 
to continue to be competitive in that area will be the 
international marketplace and Customs and Border Protection 
working to ease commercial trade processing systems so that 
U.S. companies can maintain an efficient supply chain and 
operate fast and secure trade flows.
    In conducting this mission, CBP faces many challenges: 
promoting a fast and effective cargo clearance process, 
something my colleague, Senator Murray, has been very involved 
in; reducing the importation of counterfeit goods; and 
coordination of information and Federal agency guidelines.
    Gil has a very solid track record in interagency 
coordination and implementing new initiatives, and I think 
continuing to step up to the challenges is going to mean new 
processes. In 2009, he became the Director of the Office of 
National Drug Control Policy, and he advised the President on 
this. And, again, Federal agencies needed the cooperation with 
local initiatives to make that work. And so all of this is 
going to be incredibly important.
    And lastly, Mr. Chairman, he has worked to advance very 
cost-effective programs in improving enforcement efforts, and, 
again, I think that is always going to be the bottom line at 
Customs and Border Protection. We have to improve it. It has to 
be fast and efficient, but we always have to do it in a cost-
effective way too, and these will be new initiatives.
    So I very much look forward to his nomination moving 
through the Senate and for the work that he is going to do 
continually for our Nation.
    The Chairman. Thank you, Senator.
    Senator Murray, we are honored to have the senior Senator 
from Washington here.
    Thank you very much, Senator.

                STATEMENT OF HON. PATTY MURRAY, 
                 A U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman. Thank 
you to Ranking Member Hatch and to all the members of the 
committee. I am very honored to be here with my colleague, 
Senator Cantwell, to introduce Gil Kerlikowske to the members 
of this committee.
    I want to welcome Director Kerlikowske and congratulate him 
on the honor of being nominated as the next Commissioner of 
Customs and Border Protection at the Department of Homeland 
Security. I also want to thank Director Kerlikowske and all of 
his family for accepting this responsibility at this important 
time in our Nation's history.
    Mr. Chairman, we know the next Commissioner of Customs and 
Border Protection will face a number of key challenges. He will 
be faced with the difficult task of balancing the need to 
secure our Nation's borders and ports of entry with the need to 
respect and preserve the civil liberties enjoyed by American 
citizens and the free flow of commerce that is so essential to 
our State and national economies.
    Mr. Chairman, let me assure you that Gil Kerlikowske is the 
right man to address these challenges. He brings 37 years of 
law enforcement experience, including 9 years as Chief of 
Police for Seattle. With his recent experience as Director of 
the Office of National Drug Control Policy, he worked to bridge 
the gap between local and Federal law enforcement officials.
    As he has shown time and again, Director Kerlikowske will 
bring a fresh, new, and hands-on perspective to Customs and 
Border Protection. As a former police chief, Director 
Kerlikowske understands the importance of partnerships between 
Federal, State, and local law enforcement, and he understands 
how to use evidence-based strategies to make communities safer 
by reducing crime, while improving the morale and performance 
of a large agency.
    Mr. Chairman, I have seen his work firsthand as Seattle 
Police Chief. Under his leadership, not only did crime in 
Seattle reach an all-time low, but the Seattle Police 
Department, with county, State, and Federal law enforcement 
agencies, worked to bust a drug ring that stretched from Mexico 
to Canada, running right through Seattle and eastern 
Washington.
    These multiagency Federal/local partnerships require 
cooperation and compromise, and they require a leader who can 
bring people with competing interests together; in other words, 
someone with Director Kerlikowske's proven experience.
    When Director Kerlikowske left Seattle to take on his 
current role as Director of the Office of National Drug Control 
Policy, local police chiefs and sheriffs told me they were 
sorry to see him go but that the Nation was gaining a true 
innovator in Gil Kerlikowske. I could not agree more.
    Director Kerlikowske has served the people of Washington 
State and the people of our Nation well, and I know that he 
will continue to do so in his new role. I am very proud to be 
here at the committee today to support his confirmation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Before you speak, Mr. Kerlikowske, I would now like to 
introduce our other nominees.
    I have already introduced Judge Marvel.
    Judge Marvel, do you have family here you would like to 
introduce?
    Judge Marvel. I do, Mr. Chairman. My husband, Robert Dyer, 
Jr., is here. My two children, unfortunately, could not be 
here, but I will tell the committee a little bit about them in 
my opening remarks.
    The Chairman. Would your husband please stand so we can 
recognize him? [Applause.]
    And, Ms. Ashford, do you have family here?
    Ms. Ashford. I do, indeed, Chairman Baucus.
    I am very pleased to introduce my parents, Ronald and Wenda 
Ashford, from the great city of Boston, as well as my aunt from 
the great city of Baltimore, MD. [Applause.]
    The Chairman. Senator Cardin, are you going to introduce 
Ms. Ashford?
    Senator Cardin. Yes, if I might, Mr. Chairman. Actually, I 
am going to introduce Judge Marvel, but I will be glad to also 
introduce Ms. Ashford, because you have a good family.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN,
                  A U.S. SENATOR FROM MARYLAND

    Senator Cardin. Let me thank all three of our nominees for 
their continuation of public service. It is a sacrifice, we 
know that, and it is a family sacrifice. So I thank Senator 
Baucus for always acknowledging the family, because we know 
that it is a real commitment, and we thank you for your 
service.
    Mr. Chairman, I have known Paige Marvel for many, many 
years. I have known her since the 1970s when she was a young 
attorney at the law firm of Garbis and Schwait, known for her 
tax expertise. Later, she was a valuable member of the Venable 
law firm. Venable is a Baltimore-based law firm, then known as 
Venable, Baetjer, and Howard. It has grown a little bit since 
those days, but Judge Marvel, at that time, was their expert on 
tax law.
    As a tax attorney, she had an unquestioned reputation for 
her expertise in tax law, but also for being a good person--a 
person easy to work with and a person of unquestioned integrity 
and unquestioned qualifications.
    She has been extremely active in the Bar Association. In 
the American Bar Association, she chaired the Court Procedures 
Committee, and I give her a lot of credit for taking on that 
aspect of law that many of us who are lawyers run away from. 
She is also active in the Maryland Bar Association. She was the 
chair of the Tax Section of the Maryland Bar Association. She 
has numerous community activities. If you look at the list, you 
will see that she has volunteered in so many areas in our 
community.
    Since April 1998, she has been a member of the Tax Court. 
Her reputation only continues to get stronger, and we really 
are very fortunate to have on the Tax Court a person of her 
expertise in tax law with her ability to work to make our 
system work.
    I strongly recommend her confirmation, and I thank her 
again for her willingness to continue to serve.
    The Chairman. The Chief Judge of the Tax Court is here 
today, Judge Thornton, and so are Judge Colvin and Judge Gale. 
Could you all three please stand? We want to show our support 
for the Tax Court. Thank you very much for your service. 
[Applause.]
    It is interesting. Many Tax Court judges have a history 
with this committee, having worked for and served in various 
capacities on this committee, and we deeply appreciate that 
very much.
    Mr. Kerlikowske, we would love to hear from you. And your 
statement is automatically going to be included in the record.

STATEMENT OF R. GIL KERLIKOWSKE, NOMINATED TO BE COMMISSIONER, 
CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY, 
                         WASHINGTON, DC

    Mr. Kerlikowske. Thank you, Mr. Chairman, Ranking Member 
Hatch, and distinguished members of the committee. It is a 
privilege to appear before you.
    Mr. Chairman, I have to take a moment, as you look to a new 
venture, to recognize your service to the people of Montana and 
to our Nation.
    And thank you for allowing me to introduce my daughter.
    Let me say, when I enlisted in the Army in 1970, I took an 
oath to protect the country, and I have upheld that duty for 
over 40 years as a police officer, police chief in Buffalo and 
Seattle, and I was elected by my peers to be president of the 
Major City Chiefs Association.
    As Director of the Office of National Drug Control Policy, 
I have worked very hard to reduce the problem of drug abuse 
both domestically and internationally. And during my almost 5 
years of leading ONDCP, I have made transparency, 
responsiveness, and communication with Congress hallmarks of my 
tenure. And, if confirmed, I will continue that leadership at 
CBP.
    I am honored that the President nominated me to lead the 
largest law enforcement agency in the United States and one 
whose mission is critical to the physical and economic security 
of our country. I have had the pleasure over these years to 
work hand-in-glove with our partner agencies, CBP included, and 
colleagues to author the Northern Border Strategy, which you 
are very familiar with, and the Southwest Border 
Counternarcotics Strategy.
    I represented the United States to over a dozen countries, 
meeting with heads of state and customs officials to engage in 
programs to decrease drug trafficking and build strong border 
communities and international partnerships. In addition, it is 
incumbent that CBP also interdict weapons and funds that are 
coming from the United States destined for transnational 
organized crime.
    The dual missions that Senator Hatch mentioned, which are 
to facilitate legitimate trade and travel and, also, secure the 
border, are missions that I believe are mutually reinforcing. 
Border security and preventing terrorists, weapons of mass 
destruction, and threats to agriculture from impacting our 
country, are the more well-known side of CBP. However, CBP's 
vital Customs responsibilities include enforcing over 500 laws 
for 47 Federal agencies. We protect international property 
rights, processing more than $2.3 trillion in international 
trade and collecting more than $40 billion annually in Customs 
duties.
    And since my nomination, I have been honored to meet with 
many of you and your staffs and members of the Commercial 
Operations Advisory Committee, the trade associations, 
companies, all of which have a stake in CBP's mission and 
future direction, and I assure you that this is the beginning 
of a collaboration that will, if I am confirmed, continue and 
deepen.
    My experience as a major city police chief has continually 
reinforced the understanding that protecting people and their 
livelihoods are interconnected. Commerce, the backbone of 
American jobs and trade, depends on a predictable and safe 
environment for business, and law enforcement is critical in 
creating that. And where a large police department must foster 
a safe and welcoming environment for business and visitors and 
maintain the public's trust and confidence, well, CBP's law 
enforcement role is the same.
    In listening to leaders of the trade community, I have 
heard consistently that CBP has made real progress to 
modernize, simplify, and make more uniform its trade and 
business process. If confirmed, I intend to build on that 
foundation to foster economic prosperity, economic security, 
and the border security objectives, continuing the outreach to 
stakeholders and Congress.
    If confirmed, I want to focus on four particular areas. 
First, CBP needs to continue to prioritize the completion of 
the Automated Commercial Environment (ACE). That is the 
electronic automated system for the efficient transmission of 
data to all U.S. Government agencies, and that will ensure 
efficient and timely entry and release of cargo.
    Second, CBP needs to modernize its export process to 
streamline exports and foster growth for U.S. companies, and 
this needs to be done in close collaboration with all of CBP's 
partners, including industry.
    Third, CBP needs to focus its enforcement resources to 
protect U.S. companies from unfair competition; ensure that 
American technologies, intellectual properties, and goods are 
protected from threats; and protect domestic consumers from 
unsafe and counterfeit products.
    And fourth, CBP needs to build and retain a world-class, 
knowledge-based workforce, and the morale challenges within CBP 
really require sustained leadership attention.
    If I am confirmed, this too will be a major priority.
    Thank you for the opportunity to appear before you, and I 
look forward to answering questions.
    The Chairman. Thank you, Mr. Kerlikowske.
    [The prepared statement of Mr. Kerlikowske appears in the 
appendix.]
    The Chairman. Actually, I have some obligatory questions I 
am going to ask all the nominees, and we will get to the others 
later.
    First, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Kerlikowske. No.
    The Chairman. Judge Marvel?
    Judge Marvel. No.
    The Chairman. Ms. Ashford?
    Ms. Ashford. No.
    The Chairman. Thank you.
    Do you know of any reason, personal or otherwise, that 
would in any way prevent you from fully and honorably 
discharging the responsibilities of the office to which you 
have been nominated?
    Mr. Kerlikowske. No, sir.
    Judge Marvel. No.
    Ms. Ashford. No.
    The Chairman. Thank you.
    Do you agree, without reservation, to respond to any 
reasonable summons to appear and testify before any duly 
constituted committee of the Congress, if you are confirmed?
    Mr. Kerlikowske. I do.
    Judge Marvel. Yes, sir.
    Ms. Ashford. Yes.
    The Chairman. Thank you.
    Finally, do you commit to provide a prompt response in 
writing to any questions addressed to you by any Senator of 
this committee?
    Mr. Kerlikowske. Yes.
    Judge Marvel. Yes.
    Ms. Ashford. Yes.
    The Chairman. Thank you.
    Judge Marvel, why don't you present your testimony? Then we 
will have Ms. Ashford give her testimony.

 STATEMENT OF HON. L. PAIGE MARVEL, NOMINATED TO BE A JUDGE OF 
          THE UNITED STATES TAX COURT, WASHINGTON, DC

    Judge Marvel. Thank you. Chairman Baucus, Ranking Member 
Hatch, and distinguished members of the Committee on Finance, 
thank you for the privilege of appearing before you today.
    I last appeared before this committee almost 16 years ago, 
after I was nominated for my first term as a Tax Court judge. I 
am grateful to President Obama for nominating me for a second 
term on the Court, and I am grateful to you and to the 
committee staff for the help given to me throughout this 
process.
    Senator Hatch, I am particularly grateful for your 
statement about my pending nomination during the confirmation 
hearing of my colleague, Chief Judge Michael Thornton.
    I would be remiss if I did not also acknowledge and thank 
Senator Ben Cardin and his staff for the help they gave me both 
before and after the President announced my nomination. I am a 
lifelong resident of the State of Maryland, and I have followed 
Senator Cardin's political career from the time he was rising 
in the ranks of the Maryland State Legislature. He has been my 
Delegate, Representative, and Senator for decades. I have long 
admired his commitment to constituent service, and I have 
benefitted from it several times. Senator Cardin, thank you for 
your continuing excellent service to the State of Maryland and 
to this country.
    I would like to take this opportunity to also thank my 
family for the support they have given me during my career. My 
husband of almost 40 years, whom I introduced to the committee, 
Robert Dyer, has been my greatest supporter and friend since we 
first met in 1971 at the University of Maryland School of Law.
    We have two children. Our son, Alex Dyer, holds a B.S. 
degree in architecture from Washington University in St. Louis 
and intends to pursue a career as an architect. Our daughter, 
Kelly Dyer, holds a B.S. degree in neuroscience and behavioral 
biology from Emory University and is currently working in 
Atlanta as a research assistant on a public health project 
while she studies for the MCAT examination.
    There are two members of my family who are not here today 
whom I really need to acknowledge. My mother, Louise Harrison, 
is 92 years old and, due to health problems, can no longer 
travel. If she were here, she would tell you that she served 
this country honorably during World War II as a U.S. Army nurse 
anesthetist on a hospital ship in the Atlantic and in the 
Mediterranean. She would also tell you, whether you asked or 
not, that if you want to honor her service, you should confirm 
her daughter. [Laughter.] I had to say that, sorry.
    My sister, Vicki Marvel, is a school counselor in a middle 
school in Norman, OK. She looks after my mother, and she is 
also recuperating from a knee replacement surgery she had 
recently.
    I wish they could be here. They are not. I want to thank 
both of them for making me the person I am today.
    My professional family is also here, and I want to 
acknowledge them, if you would permit me to do so. Angela Frith 
is my chambers administrator, who is seated here behind me. My 
two law clerks are Chaim Gordon and Doug Longhofer. Together, 
they keep my chambers functioning at a very high level, and I 
am grateful for their hard work on my behalf, and I really want 
to take the opportunity to state publicly how much they do for 
me on a daily basis.
    I also want to thank my colleagues, Chief Judge Michael 
Thornton, Judge John Colvin, and Judge Joseph Gale, for 
supporting me and Tamara Ashford by attending this hearing 
today.
    Before I joined the Tax Court in 1998, I practiced tax and 
business law for 24 years and clerked for several years before 
that. I tried cases in the Tax Court and in other Federal and 
State courts throughout this country. That experience led me to 
appreciate both the benefits and burdens of the litigation 
process and the effect that it has on the people it touches.
    As a Tax Court judge for almost 16 years, I have taken my 
experience and applied it to the courtroom over which I 
preside. I make every reasonable effort to treat litigants 
fairly, to alleviate the fear that many litigants and witnesses 
have when they enter a courtroom, to assist litigants in 
understanding what they must prove, and to help them build the 
record I need to decide a case fairly.
    I am mindful that the Tax Court is the Federal court that 
handles the vast majority of Federal tax litigation in this 
country and that it has a very large population of pro se or 
self-represented taxpayers.
    Congress designed the Tax Court to be a litigation forum 
for all taxpayers, represented or not, and I will continue, if 
confirmed, to honor Congress's intention by approaching cases 
with an open mind and a commitment to justice.
    Thank you again for considering my nomination. I would be 
happy to answer any questions that you might have.
    The Chairman. Thank you very much, Judge.
    [The prepared statement of Judge Marvel appears in the 
appendix.]
    The Chairman. Ms. Ashford, you are next.

 STATEMENT OF TAMARA WENDA ASHFORD, NOMINATED TO BE A JUDGE OF 
          THE UNITED STATES TAX COURT, WASHINGTON, DC

    Ms. Ashford. Good morning, Chairman Baucus, Ranking Member 
Hatch, and distinguished members of the Finance Committee. 
Thank you for the privilege of appearing before you today.
    I am grateful to President Obama for nominating me, and I 
am grateful to you and the committee's outstanding staff for 
processing my nomination so promptly.
    Thank you again for allowing me to introduce my parents, 
Ronald and Wenda Ashford. My father is actually a retired high 
school teacher with the Quincy, MA public schools, having 
taught at the same school for over 35 years.
    The Chairman. More confirmation of my theory: show me an 
achiever, and there is a teacher in the family.
    Ms. Ashford. Correct. Similarly, my mother retired after a 
nearly 40-year career at the Massachusetts General Hospital.
    They have both instilled in me the passion for learning and 
a love for the law, as well as the values of working hard and 
being a good public servant, and I am thrilled that they could 
be here with me today. Their support has been invaluable, and I 
am grateful beyond what words can convey.
    I was also very pleased to introduce my aunt, joining us 
from Baltimore. My Aunt Bonnie is an inspiration to me because 
of the imprint she has made and the barriers she has broken in 
tennis--not only in North Carolina, where she and my mother, 
together with their brother, were raised, but in the larger 
tennis world. A professional tennis player, notably, Bonnie was 
the first black member of the Virginia Slims Tennis Circuit, 
which circuit eventually became the basis for the later-named 
WTA Tour. And she was among the first people of color to play 
in the South African Open Tennis Championships in Johannesburg, 
South Africa in 1972. I am grateful for her continuous support.
    Most of my nearly 20-year career as a lawyer has been spent 
directly involved in the area of tax controversies and 
litigation, and I have experience in handling these types of 
matters from all sides--the Department of Justice, private 
practice, and the Internal Revenue Service.
    In private practice, my focus was on Federal tax 
controversy and litigation matters, representing both corporate 
and individual taxpayers in the United States Tax Court, as 
well as other Federal trial and appellate courts.
    Early in my career, as a civil tax appellate attorney with 
the Department of Justice's Tax Division, I briefed and 
presented oral argument in cases before the U.S. Courts of 
Appeal that were appealed from the Tax Court, as well as other 
Federal courts.
    For the past few years, as the Deputy Assistant Attorney 
General for Appellate and Review, I led the team responsible 
for determining the government's unified strategy with respect 
to civil tax appeals originating from the Tax Court and other 
Federal courts. I also worked to resolve civil tax cases 
through settlement or through concession.
    As an aside, I actually would like to take this opportunity 
to thank my boss, Assistant Attorney General Kathy Keneally, 
who is here today--thank you--for her leadership, her support, 
and her friendship. I owe a great deal of thanks to her for the 
fact that I sit here today as a nominee to the Tax Court.
    Through my experiences, which also include leadership 
positions held outside my professional work, I have come to 
understand what makes a good judge and have amassed the 
temperament and skills to be an independent arbiter as a Tax 
Court judge. If confirmed, I hope to continue to be guided by 
the principles and values instilled in me by my family and my 
past experiences, to work hard, and to serve our Nation's tax 
system by resolving tax controversies fairly, impartially, and 
expeditiously.
    Thank you again for the opportunity to testify, Mr. 
Chairman. I am happy to answer any questions the committee may 
have.
    The Chairman. Thank you, Ms. Ashford.
    [The prepared statement of Ms. Ashford appears in the 
appendix.]
    The Chairman. What, in your experience, in your prior 
roles--private sector, public, and so forth--have you learned 
that is going to be most important, do you think, for your new 
job as a judge on the Tax Court? What have you learned that is 
probably going to be most important for you to focus on?
    Ms. Ashford. Thank you for your question, a very important 
question, Chairman Baucus.
    I think, for me, my wealth of professional legal experience 
has prepared me for the role as Tax Court judge. In particular, 
when I was in private practice, I had the ability to represent 
taxpayers before the Tax Court--corporate taxpayers as well as 
individual taxpayers. And in particular, with respect to 
individual taxpayers, I have had the personal experience that 
it can be daunting and confusing for, in particular, less-
sophisticated taxpayers to resolve their disputes with the 
government, with the Internal Revenue Service.
    So I think my experience in representing both individual 
and corporate taxpayers will serve me well on the Tax Court, to 
serve as an independent arbiter to the Court.
    The Chairman. I just think it is an advantage you have: 
that is, outside experience like that. That is going to make a 
big difference, I think. I appreciate that experience.
    Ms. Ashford. Thank you, Senator.
    The Chairman. Judge Marvel, briefly, you have been working 
with the Tax Court for a while now. We are trying to reform the 
tax code. Very briefly, just give us one or two salient 
observations you have with respect to the U.S. tax code that 
you think the Congress should address.
    Judge Marvel. I am not sure that I am really prepared to 
say what Congress should address, Senator, but I will say this, 
that having seen the tax system affecting real people and 
having those cases then come to the Court for us to resolve, it 
is readily apparent to me that the more that people can 
understand what the tax law requires of them and what they need 
to do to comply with it, the better off the entire system will 
be, and the better off the Court will be.
    The vast majority of the litigants whom I have seen during 
my years on the Court have been people or companies or States 
that operate with regard to the tax law in good faith. They may 
make a mistake. The government may, in fact, be wrong. But the 
bottom line is, they come to the Court maybe a little confused, 
maybe they made a mistake. But they are certainly not 
deliberately trying to cheat the government. You have a few 
notable exceptions to that.
    But I do think that the more people can understand what 
they are obligated to do----
    The Chairman. You are suggesting perhaps more 
simplification.
    Judge Marvel. That is exactly what I am suggesting.
    The Chairman. Thank you.
    Mr. Kerlikowske, what is the one major effort that you 
think must be undertaken to encourage greater trade 
facilitation, because trade is so important and becoming so 
much more important over the years to our job growth, et 
cetera?
    Is there something that kind of comes to mind, sort of 
number one, that we should focus on, you in your new job and 
Congress, to help facilitate trade, from your job's 
perspective?
    Mr. Kerlikowske. Senator, I met with a number of trade 
associations and companies, from Boeing to COSCO, et cetera. 
They want predictability and consistency, and they would also 
like to see the interagency functions of the U.S. Government 
operate with that same level of consistency.
    That is why I am encouraged by the support for the 
automated system that would provide everyone in the U.S. 
Government exactly the information that they need to make those 
decisions, to get the cargo in, to make sure that it arrives 
safely, and to make sure that it is disbursed properly. And I 
think that I will devote a significant amount of time to making 
sure that that very expensive computer system is up and running 
and performs the way it should for commerce.
    The Chairman. And I suppose you will take some of your 
experience as the Seattle Police Chief, where you worked with 
different agencies, Federal and State, et cetera, to get people 
working together, moving in the same direction.
    Mr. Kerlikowske. Very much so. The fiscal environment is 
difficult and will continue to be difficult. The more that the 
different agencies can cooperate, and, particularly I think, 
the more the Federal Government can cooperate and work with 
State and local officials, the better.
    The Chairman. Well, I encourage you to be a leader. I know 
you are anyway. But take the reins, take over. Thank you. Thank 
you very much.
    Senator Hatch?
    Senator Hatch. Thank you, Mr. Chairman.
    I want to compliment both of the nominees to the Tax Court 
for being willing to serve and for the expertise that you bring 
to it.
    In particular, I am really pleased to see your--is it your 
aunt here who played tennis?
    Ms. Ashford. Yes.
    Senator Hatch. I remember going to South Africa at the 
height of Apartheid, and I really appreciate you being here 
today too, and the rest of the family--all of you.
    So you both are very competent, and we are going to support 
you as strongly as we possibly can, and we look forward to 
having you serve. These are important jobs, and I appreciate 
the humility that both of you display with really wanting to 
help people who really do not know where to go and what to do. 
So I want to congratulate both of you for your service and for 
your expertise, your background, and what you have been able to 
do with your lives.
    Mr. Kerlikowske, you do not get off quite as easy. But you 
are going to get off easy, because I think very highly of you.
    As I said in my opening statement, protecting the homeland 
is essential to our security, but trade is also very important 
to our economic security. So, if confirmed, and I believe you 
will be, as the next Commissioner of CBP, how will you ensure 
that trade functions receive high priority at CBP?
    Mr. Kerlikowske. There are two things that I would 
undertake. One is that I would continue with the meetings that 
I have had, but then in an official capacity, if confirmed, to 
make sure that the trade and also the travel community has an 
open door and clear lines of authority.
    I would also appoint two direct reports to me within CBP, 
one to serve as a liaison to the trade community and one to 
serve as a liaison to the travel community, so that those 
organizations would have a single point of contact that would 
be direct to me. I would also, of course, be open to all of 
those conversations with them.
    Senator Hatch. That is great.
    Intellectual property matters are an important part of our 
ability to both export and import innovative goods and services 
around the world. When we held a hearing to discuss the Trade 
Facilitation and Trade Enforcement Reauthorization Act of 2013, 
we heard from the general counsel at the National Electrical 
Manufacturers Association, Mr. Clark Silcox, about the 
importance of IP protection. Mr. Silcox stressed the importance 
of ensuring that counterfeit and unsafe products that could 
potentially harm U.S. consumers do not cross over our borders.
    So, while we need strong intellectual property rights 
enforcement abroad, we also need strong enforcement at our 
borders. Please let us know what you would do, if confirmed as 
the next Commissioner of CBP, to ensure that our intellectual 
property laws are properly enforced at our Nation's borders.
    Mr. Kerlikowske. Senator, that issue has been made very 
clear to me. I can tell you that I have been impressed with the 
interagency work group that has been put together to protect 
intellectual property, and I also recognize that the power of 
innovation and new products is critical here in the United 
States.
    I would continue to build upon that interagency 
cooperation. Also, the Centers of Excellence that have been 
developed--10 of them now for CBP--provide subject matter 
expertise in this area so that there is one set of learning 
programs, one set of information that can be communicated, 
whether it is the port in Seattle or the port in Baltimore, on 
what to do be alert for.
    Also, I think we have to move faster. CBP will have to move 
faster to be able to get this information out. Waiting for days 
at a time is not going to work for me.
    Senator Hatch. Thank you. Let me just ask one more 
question.
    Several months ago, we held a hearing here to consider 
legislation reauthorizing Customs. At the hearing, David 
Cooper, the Global Customs Compliance Manager at Proctor and 
Gamble, discussed the damaging effects of counterfeit products 
and particularly the danger posed to consumers by counterfeit 
drugs.
    Now, Mr. Cooper described the ways P&G has collaborated 
with CBP to increase identification of counterfeit products at 
our borders. As the current drug czar, you know the importance 
of preventing unsafe drugs from entering the United States. So 
let us know what you would do, if confirmed, to make sure that 
unsafe drugs do not enter into the United States.
    Mr. Kerlikowske. Senator, I think there needs to be better 
communication and better collaboration with the Food and Drug 
Administration.
    I have been really privileged to be able to work with Dr. 
Hamburg now as the Administrator of FDA for 4\1/2\ years on the 
issue of opioids and prescription drug abuse issues and, also, 
precursor chemical issues that come into the United States.
    FDA, of course, has hold-and-release authority at these 
ports, but I think that, in my meetings with her and others, it 
will be critical that this level of knowledge and cooperation 
be expanded upon, particularly because at all of the ports at 
that 24/7 timeframe, there are CBP people present, but there 
are not always FDA people because of the staffing.
    So increasing the communication, education, et cetera, with 
CBP and FDA will be critical to that end.
    Senator Hatch. Mr. Chairman, I want to compliment Mr. 
Kerlikowske and our two nominees for the Court. You are really 
great people and you deserve our support, and we will do 
everything in our power to see that you get it as quickly as we 
can. I just want you to know that, all three of you.
    The Chairman. Thank you, Senator.
    Senator Grassley?
    Senator Grassley. Congratulations, all of you.
    I hope if I do not ask the judges any questions, you do not 
take it personally. I have a couple questions for Mr. K, if he 
would respond.
    You have some very good--I believe seven points that you 
want to focus on, if you are confirmed. They were in your 
opening statement. And I think they are fine, and I do not have 
any problems with them.
    None of them, though, dealt directly with border security, 
but rather, how to increase efficiencies and other things.
    Am I to assume from your priority list, which does not 
include much about overall border security, that you believe 
that we are already sufficient in that area?
    Mr. Kerlikowske. No, Senator. I was very cognizant of 
staying within my 5 minutes. But in my written testimony and in 
my discussion with various members of the staff, border 
security was particularly important.
    Having authored the Southwest Border Counternarcotics 
Strategy, having made probably now close to a dozen trips to 
the southwest border to work with State and local officials and 
to see the operations going on there, I clearly understand and 
recognize the importance of border security.
    I think that there have been significant improvements in 
border security. I think more needs to be done, and through 
technology, through the use of the resources that Congress has 
funded, I would make sure that those are used in a consistent 
way to increase border security.
    Senator Grassley. The second question deals with 
undocumented immigrants. I am concerned about the increased 
number of applicants who are filing for asylum or claiming 
credible fear at our ports of entry, especially at the southern 
border. We are now seeing 36,000 credible fear applications in 
a single year, and that was only 5,000 in the year 2008.
    I bring this up because Customs and Border Protection 
agents would be the first point of contact for these 
individuals. The Washington Times and the House Judiciary 
Committee have reported that drug cartels are using our asylum 
system to bypass immigration checkpoints. An internal Customs 
and Border Protection memo also details that.
    In one instance, a woman made a claim of asylum and, 3 
months later, was apprehended by the border patrol checkpoint 
with more than $1 million worth of cocaine. If someone claims 
credible fear, they wait for their interview with an asylum 
officer. There is some discussion that more scrutiny needs to 
be given on this front, on the front end, so that they cannot 
exploit that loophole.
    A couple of questions. If confirmed, would you make it a 
priority to talk to agents and determine if our generous asylum 
process is being exploited?
    Mr. Kerlikowske. Senator, it is a very important issue, and 
I recognize the long history in the United States of being able 
to provide asylum to people who meet the standards. I know that 
the process can be rather lengthy. I have spent a career as a 
law enforcement officer, as a police chief, particularly, being 
out in the field, kind of being a hands-on individual, as 
Senator Cantwell mentioned. I would continue to do that, if I 
am confirmed as the Commissioner of CBP.
    I would look at this issue very carefully and understand 
its complexity, but I would not want this exploited in a way 
that would harm the United States.
    Senator Grassley. Well, I guess as a final point, I would 
ask if you--well, first of all, I want to make a point that I 
surely want your agents to find ways to address what I think is 
an abuse without compromising our tradition of asylum.
    And, if confirmed, then would you report back to me about 
actions that you will take to ensure that CBP agents are doing 
all they can to stop the abuse, including cooperation with the 
U.S. Citizenship and Immigration Service adjudicators?
    Mr. Kerlikowske. I will do that, Senator.
    Senator Grassley. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator.
    Senator Schumer?
    Senator Schumer. Thank you, Mr. Chairman, and welcome to 
all the nominees, particularly to the one I know best, to my 
good friend Gil Kerlikowske, who did a great job in Buffalo 
before he moved to Seattle and many other places. He leaves a 
fine reputation in every place he goes and then leaves. 
[Laughter.] We wanted him to stay in Buffalo. He is a great 
chief.
    So I want to talk to you about our ports of entry, 
specifically at JFK in New York City and the Peace Bridge at 
the other end of our State, in Buffalo.
    JFK Airport in New York has the longest average Customs 
wait line in the country. Nearly 1,000 passengers per day 
experience greater than a 45-minute wait for inspection, some 
days greater than 60. In summer, average delays during peak 
hours exceeded 2 hours. That is not a good introduction to 
America or New York, obviously.
    Record-long wait times at JFK are limiting the amount of 
time that travelers spend in New York and are deterring further 
travel to New York City and to the rest of the country, New 
York being our biggest gateway. So Congress, as you know, is 
likely to pass an omnibus appropriations bill that will provide 
CBP with $165 million to hire 2,000 new CBP agents. I worked 
with Subcommittee Chairman Landrieu and Chairman Mikulski to 
try to make this happen.
    Can I have your commitment that, if you are confirmed, you 
will assign an adequate portion of the 2,000 new agents in our 
appropriations bill to address JFK's shortage?
    Mr. Kerlikowske. Senator, your point is absolutely 
excellent. People who are welcomed into this country after a 
lengthy travel do not need to wait many hours in line.
    I have been impressed with the work that CBP has done, not 
only in being courteous and respectful to people. There are 
improvements in technology. I am particularly heartened by the 
potential for the addition of 2,000 agents at our ports of 
entry, because I think that is absolutely critical. And I would 
certainly ensure that the ports with the longest wait times and 
the greatest traffic, those agents would be assigned to those 
locations.
    Senator Schumer. So that means JFK, because we have the 
longest wait time. Is that right?
    Mr. Kerlikowske. I think you are right, Senator.
    Senator Schumer. Thank you. Say no more. Next question.
    Buffalo, Peace Bridge. Last year, we also saw a dramatic 
increase in wait times for both passenger and commercial 
vehicles on the Peace Bridge in Buffalo, as you know.
    We are trying to get the western New York economy going 
again. One of the positive things is that Toronto is booming, 
and Buffalo is the major port of entry into the U.S. for the 
whole Toronto metropolitan area. That is very important to us, 
and the Peace Bridge is the major--there are others--but the 
major crossing point.
    The average commercial vehicle had to wait 29.4 minutes in 
fiscal year 2013. That is up about 25 percent. The average 
passenger vehicle had to wait 26.4 minutes. That is up 33 
percent, and that is just average. There are hours and hours 
and hours of waiting, and trucks then decide not to come 
through the port of Buffalo and go somewhere else, because the 
waits are so much longer there.
    The situation is clearly unacceptable, as we need more 
agents, ushering travelers, sports fans, shoppers, commercial 
vehicles into western New York. A lot of Canadians come to shop 
in Buffalo because of the exchange rate and stuff like that, 
and this is obviously a deterrent there too.
    Secretary Johnson has already committed to me that he will 
provide more agents to the Peace Bridge, assuming we pass the 
pending appropriations bill. But since these agents are 
employees of CBP, will you also confirm here today that you 
will do everything you can to add more resources to speed up 
traffic along the Peace Bridge, and will you do everything you 
can to make the preclearance pilot, which has already 
successfully worked in my colleague Maria Cantwell's State and 
is just starting now in Buffalo--there are two pilots in the 
country, one in Washington State, one in Buffalo--a permanent 
reality?
    Mr. Kerlikowske. Senator, if I am confirmed--and my new 
boss has already assured you of that--I would work very hard to 
live up to that promise.
    Senator Schumer. Great.
    Mr. Chairman, I yield back the rest of my time.
    The Chairman. Thank you, Senator, very much.
    Senator Cantwell, you are next.
    Senator Cantwell. Thank you, Mr. Chairman.
    And again, Mr. Kerlikowske, thank you for your willingness 
to serve. My colleagues have already started on kind of a dual 
track of asking questions.
    Obviously, speed is essential and so is security, and it is 
one of the reasons why I am excited about your nomination to 
this position, because somebody who comes from the Pacific 
Northwest gets that so importantly. Nothing highlighted the 
importance of trade more than the falling down of the Skagit 
River Bridge curtailing I-5 traffic and costing us hundreds of 
millions of dollars in lost opportunity practically daily.
    So we have to get that right. Speed matters. But I am glad 
that you mentioned the word ``transparency'' in your statement 
and that that is one of your goals. From a Pacific Northwest 
point of view, there are two words that are incredibly 
important to me and to my constituents. One is the issue of 
technology and the use of technology, and the other is privacy.
    I am hoping that in this position you will be able to 
further both of those issues and find the right balance. So I 
wanted to ask you, will you do everything to protect the 
constitutional rights of U.S. citizens on their rights to 
privacy in this position?
    Mr. Kerlikowske. Certainly, Senator, I would very much do 
that, if I am confirmed in this position. And I think my 
history in Seattle, in particular, is helpful, as police chief.
    I put in the cameras, the video cameras inside the police 
cars so that every police car would have an audio and a visual 
recording of every traffic stop. We instituted a number of 
checks and balances. Having been police chief there during 9/
11, you know that the city of Seattle operates under a unique 
intelligence oversight ombudsman agreement similar to what 
existed in New York City and what is called the Handschu 
agreement.
    I was told that perhaps it would be time, after 9/11, that 
that oversight mechanism, the ombudsman, would not be as 
necessary given the threat of terrorism in the country. I 
looked at that very carefully and believed that we could very 
much operate and maintain a safe city at the same time that we 
had transparency and the ombudsman to oversee our intelligence 
activities, and I would continue that at CBP.
    Senator Cantwell. Well, I think these issues are important. 
Obviously, CBP--prior to your nomination--caught a lot of 
people off guard out on the Olympic Peninsula showing up in 
unmarked cars. People were not thinking that they were 25 miles 
from the border. They were thinking they were out on a Sunday 
afternoon drive and the next thing you know, they were being 
pulled over by somebody, and they did not even recognize the 
markings. So transparency is very important to this process.
    But you might have seen the Washington Post article today 
on unmanned aerial vehicles. The Commerce Committee is having a 
hearing this afternoon on unmanned aerial vehicles. Now, 
Customs and Border Protection can make great use of this 
technology, whether we are talking about the drug interdiction 
off the coast of Washington and helping the Coast Guard or our 
very porous borders that cannot have people everywhere.
    But, obviously, one of the big privacy concerns is that 
somehow information will be collected and stored and then 
accessed by other individuals that may invade the personal 
privacy rights of U.S. citizens. So I hope that you will work, 
as the head of this organization, to pay attention to these 
privacy issues, to see that technology moves forward, but that 
we come up with a firm and solid ground for the privacy rights 
of U.S. citizens under the Fourth and Fourteenth Amendments to 
be protected.
    Mr. Kerlikowske. I very much understand that, Senator, and 
I would adhere to that.
    Senator Cantwell. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Thune?
    Senator Thune. Mr. Chairman, I just walked in. I would be 
happy to yield to my neighbor here from North Carolina who has 
been waiting patiently.
    The Chairman. That is right. Actually, next on the list is 
Senator Carper.
    Senator Carper. I am happy to yield to Senator Burr.
    Senator Burr. Mr. Chairman and my colleagues, thank you 
very much.
    Judge Marvel, thank you for your service.
    Ms. Ashford, your connections to North Carolina just made 
you a certainty of getting through.
    Ms. Ashford. Thank you.
    Senator Burr. I want you to know that.
    Mr. Kerlikowske, thank you for what you do, and I just have 
one question for you.
    In November 2012 and again in November 2013, as the 
Director of Drug Policy, you sent letters to the Health 
Minister of Canada suggesting that the two governments work 
together in determining whether or not to allow non-abusive 
deterrent formulations of 
tamper-resistant medicines to be approved.
    Let me just speed forward. I understand that you met 
recently with your Canadian counterparts to pursue the 
alignment on abuse deterrent formulations. And I will have some 
questions for the record that are a little more specific.
    Let me ask you today, can you give us an update on how 
those conversations took place and, more specifically, how 
Border Patrol can be utilized in a way to assure us that any 
harmonization is accomplished in a successful way?
    Mr. Kerlikowske. Thank you, Senator. This has been an 
important issue because of the number of deaths, over 16,000, 
due to prescription drugs. Drug deaths now in the United States 
surpass deaths due to accidents, both automobile fatalities and 
also gunshot wounds. So we have been focused on these 
prescription drugs which come right out of, oftentimes, our 
medicine cabinet.
    The pharmaceutical industry has worked hard to develop 
abuse-resistant formulas that cannot be crushed or injected, 
and that has been helpful. Unfortunately, that has not occurred 
in Canada, and we know from, in fact, Milwaukee that some of 
these drugs have been detected.
    So I met with the Health Minister now 2 years ago to talk 
about that. And, as you know, they have a very different system 
of government in which their provinces hold a great amount of 
authority, and it is not the same level of authority that our 
FDA would have.
    Since that time, there is a new Health Minister, and I have 
not had the opportunity to meet with that person, but I am 
continuing to work to see that abuse-resistant formulas be 
recognized as important in Canada. And just as importantly to 
the United States, if those are the only ones that are 
available, we would have far less to be concerned about from 
them coming into the United States.
    Senator Burr. Well, I thank you for recognizing the threat 
and encourage you to continue to work with our partners to the 
north to try to harmonize what they do to match the threat that 
we are presented with.
    In your new role, I hope you will use your position to 
force that harmonization in any way you can.
    Thank you for this. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Menendez, you are next.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Mr. Chairman.
    Senator Menendez. We look forward to your appearance before 
the Foreign Relations Committee, Mr. Chairman, which I am sure 
will be very successful. [Laughter.]
    Mr. Chairman, I appreciate all of the witnesses here. My 
focus is on Mr. Kerlikowske, whom I have had the pleasure of 
having some discussions with.
    I know that, while the committee's focus is primarily from 
the Customs point of view, since this is the one hearing that 
will be held, I wanted to make sure that I broach some other 
issues on the other side of your portfolio, and that is on the 
CBP use-of-force policy.
    I look at that, and since January of 2010, at least 19 
people have died as a result of alleged excessive force by CBP 
officials. Yesterday, the DHS OIG released a report on the CBP 
use-of-force policies, outlining some first steps that the 
agency is taking, such as tracking the use-of-force incidents, 
and, frankly, I think more can be done.
    When a young person throws a rock across the border, toward 
the border or a border agent, some agents respond with a gun, 
and others do not seem to respond at all. There seems to be 
some need for consistency in the response to these incidents 
and how we treat them.
    Several members of Congress and I asked the DHS Office of 
Inspector General to complete a review of CBP's use-of-force 
policy and practice, and they recently issued their 
recommendations. In addition, CBP conducted its own review and 
sought the expertise of an outside review by the Police 
Executive Research Forum. As a result of these reviews, they 
announced that there will be a series of reforms based on more 
than 90 recommendations from these reviews.
    So, obviously, there is an issue here, because we have had 
both the agency and those outside of the agency look at this 
question. So my question to you is, will you commit to 
implementing the recommendations issued by the Police Executive 
Research Forum and providie Congress and the public with 
maximum transparency regarding CBP's use-of-force policy, 
including release of that report?
    Mr. Kerlikowske. Senator, transparency in a use-of-force 
policy in any law enforcement agency is critical. If you do not 
have the trust and the cooperation of the people you serve and 
they do not understand or they are not knowledgeable of your 
policies, it makes that trust and cooperation very difficult.
    I have not been in a law enforcement agency in which the 
specifics of the use-of-force policy were not available to the 
general public, and I would work very hard to see that that is 
done within CBP. Having spent 4 decades in law enforcement, I 
clearly recognize the difficulties around use-of-force policy, 
including the training, including the equipment, including the 
changes that may have to be implemented in culture.
    I have to tell you, I have been very heartened by the 
briefings that I have had by Chief Fisher, and also the 
statements that the acting Commissioner, Tom Winkowski, has 
made to the public about the changes and reviews that are 
underway.
    I looked at the reports that have been provided to me. I am 
not familiar with every specific recommendation, but I think I 
have a long and, I really believe, a well-deserved reputation 
in law enforcement for making sure that people are held 
accountable.
    Senator Menendez. I appreciate that, and before my time 
runs out, what I want to know is--I would like to get a 
commitment from you that you will report back to us about what 
those recommendations were and what recommendations you are 
going to follow and which ones are you not.
    I want our people to be protected at all times. By the same 
token, I do not want an unnecessary death, and there is a lack 
of uniformity of policy that exists. So, whether it is up to 
the individual to shoot or not shoot--a badge gives you your 
legal authority, a gun gives you your ultimate authority, and 
we need to know that we are doing it in the best possible way.
    So, can I get that commitment from you?
    Mr. Kerlikowske. I know that the discussion is underway 
about reports and what can be released. I would assure you that 
I would be responsive to these concerns, that I would institute 
the changes and the improvements in training policy and 
equipment that are necessary to bring a level of confidence, 
not only to the people in CBP, but also to the people whom we 
serve, and I would assure you of that, Senator.
    Senator Menendez. Mr. Chairman, I have one more question, 
if I may, please.
    This is going to be very important to me as I decide. So, 
in following on, I would like to discuss CBP's detention 
facilities and conditions issues. I have visited some of these 
facilities.
    We detain people because of the power of the Federal 
Government. And when we would detain someone--including, 
unfortunately, hundreds of cases that my office has seen of 
U.S. citizens and legal permanent residents unlawfully detained 
in immigration facilities because of the happenstance of who 
they are, where they live, and what they look like--it is 
unacceptable to have their constitutional rights violated.
    So, when we have somebody in a detention facility, we do it 
by the power of the Federal Government, and their safety and 
security during that period of time is not delegable to anyone 
else. It is ultimately our responsibility.
    Many of these facilities have reports of detailed denial of 
medical care, inadequate food and water, extreme temperatures 
in hold rooms, inadequate access to food, and a whole host of 
other issues. I am especially concerned about the numbers of 
unaccompanied minors suffering while in CBP custody.
    Can you support a similar transparent effort to make sure 
that we have the appropriate standards and safeguards for the 
security of individuals we detain--sometimes U.S. citizens and 
legal permanent residents, unlawfully so--to ensure their 
safety and security? And will you work to make sure that these 
detention facilities, whether they are ones that we operate 
directly or that we contract out--and this is where most of the 
problems end up being, when we contract out--live up to a 
standard that we can respect to assure the safety and security 
of individuals who are there?
    Mr. Kerlikowske. Senator, if I am confirmed, I would very 
quickly undertake a personal review and inspection of some of 
these facilities, including those temporary detention 
facilities.
    I would also tell you I have had a conversation with Dan 
Tangherlini from GSA about facilities and about the need for 
CBP, if I am confirmed, to work very closely with GSA on 
infrastructure and the type of facilities that are needed.
    I would also undertake the medical review that you 
initiated.
    Senator Menendez. Thank you, Mr. Chairman. I appreciate it.
    The Chairman. Thank you, Mr. Chairman.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    I just want to welcome the nominees who are before us here 
this morning.
    I would like to, Mr. Kerlikowske, ask you or at least visit 
with you a little bit about something that I think you know, 
because we have talked about it in my office. But Senator Wyden 
and I have been engaged in ongoing dialogue with the CBP over 
the last few years regarding duties that have gone uncollected 
on imports of Chinese honey, garlic, crawfish, and mushrooms.
    You and I discussed this issue when we met last year, and, 
while I greatly appreciate the effort that the CBP has made to 
work with my staff on this matter, I believe more remains to be 
done. Just as an example, on January 2nd, we received a letter 
from acting CBP Commissioner Winkowski that stated that there 
were roughly $140 million in imports of Chinese honey between 
2000 and 2007, and that there is more than $100 million in 
bonds posted on these imports not yet collected. Yet, we still 
do not know how much of this amount is currently in litigation 
and how much is likely to be collected.
    It is important, I would say, to the South Dakota honey 
producers that duties owed on these imports are collected, and 
I hope that, if confirmed, CBP will provide you a full 
accounting of the outstanding bonds at issue and that you will 
continue CBP's efforts toward a comprehensive collection 
strategy.
    I want to ask a question. Last year, I introduced a bill 
that would increase the dollar limit below which imports are 
not subject to tariffs in formal entry procedures. It is known 
as the de miminis level. What the bill would do is, it would 
raise this level--which has not been updated in 20 years--from 
$200 to $800. It is a provision that is included in the Customs 
reauthorization bill that I hope this committee is going to 
consider at some point soon, and is supported by a broad range 
of companies, including express delivery companies like UPS and 
FedEx.
    So my question is, would you agree that reducing the 
paperwork burdens on private companies and on CBP associated 
with imports is important and will have a positive economic 
benefit?
    Mr. Kerlikowske. Senator, every trade group--and I have met 
with UPS, FedEx, et cetera. Every trade group is very 
encouraged by the fact that automation is underway, and they 
have put their own time and their own resources into making 
sure that they will be a part of the ACE system and others.
    Making things more transparent through automation, making 
them easier and more efficient and less costly, would be a 
major goal, if I am confirmed.
    Senator Thune. Well, hopefully, we can get you some 
legislation too that would help get that issue addressed in 
statute and get the law updated, which is 20 years old, as I 
mentioned.
    In October of last year, I sent a letter to CBP regarding 
exclusion orders issued by the International Trade Commission 
under section 337 of the Tariff Act, which, as you know, deals 
with enforcement of intellectual property rights. And I was 
joined on that letter by Senators Wyden, Portman, and Cantwell. 
We sent the letter due to concerns from U.S. companies that 
these orders are not being effectively enforced.
    The response I received indicates that CBP is in the 
process of making changes to how it implements these orders, 
such as by developing a process by which more parties that are 
impacted will have an opportunity to make their views known to 
CBP. The letter states that CBP believes these process reforms 
will have, and I quote, ``tremendous benefits.''
    Do you know when CBP intends to implement the reforms I 
just mentioned, and do you have any views regarding how CBP can 
better coordinate with the International Trade Commission 
regarding enforcement of exclusion orders?
    Mr. Kerlikowske. Senator, I have had briefings on some of 
this. I certainly do not know the answer to that question about 
when CBP would undertake and be responsive on the changes 
necessary. But those communities that have briefed me and the 
people within CBP are very intent on enforcing those rules.
    I also know that it is complex, and it can be a bit 
problematic. If I am in the position and if I am confirmed, I 
would certainly make sure that the enforcement of all of the 
rules and regulations around that would take place.
    Senator Thune. Mr. Chairman, I have a couple of other 
questions, but they are questions I think I can submit for the 
record.
    Thank you.
    The Chairman. Thank you, Senator.
    The next Senator to ask questions is Senator Carper. 
Senator Carper, as we all know, is chairman of the Homeland 
Security and Governmental Affairs Committee, and I must say he 
does a super job. I attend many meetings around here where 
Chairman Carper makes lots of good points about what they are 
doing at Homeland Security, and I must say he does a super job.
    I might also say, Mr. Kerlikowske, he came up to me on the 
floor not too long ago and said, we have this great person, we 
have to get him confirmed right away, and it was you. He is a 
great advocate for the department, the former Governor from a 
great State.
    Senator Carper, it is all yours.
    Senator Carper. Thank you, Mr. Chairman.
    I would just say (this is off the record), when the word 
came out that Senator Baucus was going to be nominated to be 
Ambassador to China--we are very fond of him, and he does a 
great job--I told him, I walked up to him, and I said, ``I am 
putting a hold on your nomination.'' [Laughter.]
    Well, I had to get in the elevator and disappear, and he 
would pop back out, and he would say, ``Oh no you're not.'' We 
are not going to put a hold on your nominations here today.
    I must say, sitting next to this guy from Maryland, my 
friend, I am a bit jealous that we cannot claim any of you for 
our State, but we are honored that we can claim you for our 
country.
    I want to, as chairman of the Homeland Security Committee 
in the Senate, I just want to focus more of my questions, more 
of my comments, if I may, on Mr. Kerlikowske.
    Colleagues, it has been 5 years since we had a Senate-
confirmed Commissioner. Think about that. Five years. Five 
years of acting folks in those positions. It is a very, very 
hard job on a good day, as you know, a huge job, with huge 
responsibilities. And to go 5 years without a Senate-confirmed 
Commissioner is, I just think, inexcusable.
    We will not go into the details of why that has happened, 
but I am delighted we have a candidate with Gil's 
qualifications, with his experience, with his knowledge, and 
with his leadership skills. We are just very, very fortunate, 
and thank you for your willingness to serve.
    We work in a day, we work in a time where, even 5 years 
into this administration, we still have too often what I call 
executive branch Swiss cheese: leadership positions at the very 
top are vacant. In some cases, it is the responsibility of the 
administration for not nominating people and vetting them in a 
timely way. In other instances, it is our responsibility. So at 
least we are here and have you here today, and we have this 
hearing.
    I just want to say, Mr. Chairman, thank you so much for 
expediting this hearing and bringing us to this occasion. My 
hope is that we can get you confirmed. We have a new leadership 
team in place at the Department of Homeland Security, with a 
new Secretary, a new Deputy Secretary, and I think you will be 
a great addition to that team.
    If confirmed, Mr. Kerlikowske will not only be responsible, 
as we have heard here today, for facilitating legitimate travel 
and trade, but also for securing our land, air, and sea 
borders, as well as stemming the flow of undocumented illegal 
immigrants.
    If I heard Mr. Thune over there right, he was talking about 
honey. And all kinds of commodities are coming into and out of 
our country. We are trying to patrol a 2,000-mile border on the 
border of Mexico, a 4,000-mile border on Canada, with tens of 
thousands of Border Patrol agents and many more who work in the 
ports of entry, to make possible two things: one, the 
expeditious movement of travel, trade, and tourism into and out 
of our country and, at the same time, to protect us from all 
kinds of evils.
    It is a hard job, a hard job, and we are grateful that you 
are willing to work in that neighborhood.
    With that having been said, I want to ask a couple of 
questions, Mr. Chairman.
    First of all, if confirmed--and my hope is you will be, 
Gil--what would be maybe your three highest priorities as 
Commissioner? And, if you will, make sure that you work into 
there some comments about morale, morale of the troops. It is 
not good in the department. It is actually pretty good at CIS. 
That is the job that Alejandro Mayorkas had, head of the U.S. 
Citizenship and Immigration Services. Morale there is actually 
pretty good, but throughout the department it is not, and we 
have real concerns about morale in CBP.
    So just talk about that and maybe your other three highest 
priorities, please.
    Mr. Kerlikowske. Morale is one of the ones that I 
mentioned--and I did not put them in any particular order--
those four that I listed or went through in my oral testimony. 
I know that, looking at the Federal surveys, certainly DHS has 
been at the bottom. So there is really nowhere to go but up.
    Having been in police departments and law enforcement 
agencies which often deal with morale issues, I know that close 
cooperation and communication, even though we will not always 
agree with the unions that represent the people in CBP, is 
going to be critical. And we need to have that open door and 
better internal communications with the employees. And I would 
undertake very quickly, if I am confirmed, a rather lengthy 
visit to a number of our ports and a number of our locations to 
actually meet and talk with and listen--probably more 
importantly, to listen to the people who are actually doing the 
job.
    So morale is particularly important. Using the resources 
that Congress has provided to improve efficiency, particularly 
through technology--whether it is in areas of tunnel detection, 
ports of entry, the kiosks, on and on--the technology is a 
game-changer for that.
    I would also tell you that I think that, even though there 
has not been a confirmed Commissioner, the people who have 
served, and particularly the person whom I have been working 
with over these months, Acting Commissioner Tom Winkowski--with 
his 38 years of experience at CBP--I think have done a terrific 
job.
    But there are a number of other, as you said, Swiss cheese 
or acting positions throughout CBP. So filling those positions, 
but also developing the education and the training and the 
leadership programs so that this would not continue on in the 
future, would be important to me.
    Those would be three areas.
    Senator Carper. Great. Thank you. And I want to say 
publicly that we appreciate each of the people who has served 
in an acting capacity, acting as Commissioner for the last 5 
years, but again, we need Senate-confirmed leadership, and we 
are happy that you are going to hopefully be able to provide 
that.
    People a lot smarter than I have described CBP's security 
and trade facilitation missions as two sides of the same coin. 
The missions, as you know, are interrelated and frequently 
complementary. Occasionally, however, the security mission and 
the trade facilitation mission clash with one another and we 
see long lines at our land and our air and our seaports of 
entry.
    Just talk with us a little bit about how you might go about 
balancing those two missions for CBP to ensure that, while we 
have meaningful, strong border protection on the one side, we 
do so without unduly restricting the trade that we know is 
important to all of our countries.
    Mr. Kerlikowske. Senator, I think that the potential for 
2,000 additional agents at our ports of entry is absolutely 
critical. To reduce those wait times and to allow people 
through on legitimate travel would be particularly helpful and 
important.
    Watching the CBP personnel at those ports of entry, and 
seeing the level of professionalism and courtesy that they show 
to people while in a very demanding job, is important, and I 
think they need to have the support and the recognition of the 
Commissioner for the work that they do 24/7 in these locations.
    Cargo is also particularly important, and I know that CBP 
being stationed in over 40 countries, with the ability to do 
clearance of cargo before it ever arrives at our ports, to know 
that that cargo is not only going to be officially handled, but 
is also safe and does not contain hazardous material or 
threats, will be very important. Having worked in a city in 
which the entire port was in the downtown core, I recognize 
that very clearly.
    Senator Carper. Mr. Chairman, if I could just add one quick 
P.S. In less than an hour, we are going to be voting, as you 
know, on, I think, the omnibus appropriations bill, which 
includes funding for the Department of Homeland Security, 
including a lot of money for CBP.
    In the immigration reform bill that has passed, there are 
huge amounts of money to add to, literally double, the size of 
the force of the Border Patrol. I do not know that that is the 
best investment for our taxpayer dollars, but I do know that 
there are force multipliers, technology that is included--radar 
systems, VADER systems, all kinds of new aviation, lighter 
equipment as well--that is going to really enhance the ability 
of all those thousands of men and women who are working the 
Border Patrol for us, working the border for us, to be able to 
do their jobs better without adding the kind of debt to our 
Treasury.
    So, thank you very much. I am pleased that you are willing 
to serve. I think if you are going to pick somebody out of 
central casting for this job, I think we have the guy.
    Five years is a long time to wait, but you are worth 
waiting for. Thank you.
    The Chairman. Thank you very much, Senator.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    Once again, I thank all three of our nominees.
    Mr. Kerlikowske, I want to follow up on Senator Menendez's 
point in a little broader context. As you point out in your 
testimony, if confirmed, you will head up the largest law 
enforcement organization in the United States. And the Federal 
Government needs to lead by example.
    In the immigration reform bill that passed the U.S. Senate, 
we took up the issue of racial profiling, because we know how 
wrong it is, and that relates to some of the issues that 
Senator Menendez raised. But in a broader context, it 
compromises proper law enforcement; it compromises the support 
of communities that you need in order to be able to carry out 
the mission.
    So can you share with this committee your commitment to 
deal with proper law enforcement, if you are confirmed, and to 
deal with the risk of racial profiling?
    Mr. Kerlikowske. Senator Cardin, I can certainly assure you 
that during my career as the police commissioner in Buffalo, 
working for Janet Reno, and here for 2 years in the COPS office 
as the deputy and then the 9 years in Seattle, the racial 
profiling issue is significant for a host of reasons.
    No law enforcement agency is going to be effective at 
reducing crime or protecting people if they do not have the 
trust of the people whom they serve. And if people believe that 
they are being unfairly or unjustly targeted, they are not 
going to be cooperative in coming forward as witnesses. They 
are not going to report crimes. So it is an absolute tragedy if 
these things are not dealt with in a fair and transparent 
manner.
    The programs and the processes that I put into place in 
Buffalo, that I worked with here in the administration with 
Attorney General Reno, and the work that we did in Seattle to 
be transparent, to provide outside review, to have video 
technology of every traffic stop that was made, are all ways of 
reporting back to the people whom we serve that we are not 
going to tolerate unfair or unjust or improper tactics.
    Senator Cardin. Thank you for that answer. I would urge you 
to share that information, because I think it is helpful. When 
the large law enforcement agencies have developed the right 
procedures and the right oversight and they work, it gives more 
confidence to the local government law enforcement agencies.
    I thank you for that answer, and I appreciate it very much.
    Judge Marvel, when I was first elected to the House of 
Representatives, you were a practicing attorney in tax law, and 
you were very kind to give me advice on tax law. I was a young 
member of the Ways and Means Committee, and we talked 
frequently about ways that we can improve our tax code.
    The chairman already asked you a question about the policy 
issue. I want to get to the administrative side just for one 
moment.
    We have a new IRS Commissioner, recently confirmed. When I 
was in the House working with then-Congressman Portman, we 
tried to reform the IRS to make it more consumer-friendly. You 
talked about a consumer-friendly Tax Court.
    I would hope you would share with us, not necessarily 
today, but be willing to share with us your views as to how we 
can improve the administration of our tax system. The policies 
are hard enough for us to figure out. And we certainly 
appreciate your views on policy.
    But what can we do to make it easier for tax compliance and 
for the tax system to work in a more efficient way?
    Judge Marvel. Senator Cardin, by ``we,'' you mean Congress?
    Senator Cardin. Yes.
    Judge Marvel. As a general proposition, I think Congress 
has done a very good job in setting an administrative framework 
that will permit the Internal Revenue Service to deal 
reasonably well with the taxpayers that it is serving.
    One of the problems is that, if you do not have the tax 
people talking with the taxpayers in a realistic way, the 
communication breaks down, and the process then breaks down. 
Anything that could be done to improve the communication, the 
effectiveness of it, would benefit everybody who is involved in 
the compliance system, from audit all the way through to 
collection and into the Court. And I am just not sure how 
Congress could do much more than it already has done. It really 
needs the people involved to do a good job in working with each 
other to communicate.
    Senator Cardin. Well, we might ask you how we can do a 
better oversight job then, in following up on that.
    If I may, Mr. Chairman, I would like to ask one question of 
Ms. Ashford, having to deal with access.
    I think Judge Marvel properly pointed out that the people 
who will appear before your court, some will be very 
sophisticated and have very competent representation. Others 
will be there without that type of advantage, but will still 
have a concern. You are dealing with their livelihood; you are 
dealing with areas of major concern.
    What commitment can you make to us that you will ensure 
equal access to all citizens to the Tax Court?
    Ms. Ashford. Thank you for your question, Senator Cardin.
    If confirmed as Tax Court judge, I will assure you that I 
will do the best job I can as a Tax Court judge to ensure that 
taxpayers are treated fairly, also expeditiously and 
impartially. I want to ensure that I work with taxpayers so 
they understand the system, get their day in court, and work 
with, as well, the government, the IRS, to resolve the tax 
controversies.
    Senator Cardin. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    I have one question for Mr. Kerlikowske, and that is with 
respect to northern border Customs issues. In the State of 
Montana, there are about 550 miles across the northern Montana 
border next to Canada. I think there are 12 border stations. 
Only three are open 24 hours a day.
    In the legislation that Senator Hatch and I are urging the 
Congress to adopt, we are suggesting there be a pilot program 
to increase or look at the possibility of more border stations 
for underserved areas. It is not just the State of Montana that 
is underserved. There are other areas along the border that are 
underserved.
    I know resources are stretched. This is largely a resource 
issue. But can you tell me what commitment you will make to 
assure that the underserved northern border areas also have 
adequate access to Canada and back to the United States, 
because it is a bit difficult in many parts of the country 
right now.
    Mr. Kerlikowske. Senator, I am very much aware of this, 
having been to Montana several months ago--you were unable to 
join us--with Senator Tester, when that was made very apparent 
to me.
    I think the idea that you have proffered of an experiment 
and whether or not it has benefits then to the economy both 
nationally, but also to that local economy, is one that I 
would, if confirmed, be very willing to undertake.
    The Chairman. It is important. As you know, it is sort of a 

chicken-and-egg question. The more there is access, the more 
there is trade. Sometimes the department says, ``Well, show us 
that there is going to be more trade, so we can open it up.''
    I am just suggesting that if we open it up, they will come. 
There is pent-up demand on both sides, and I urge you strongly 
to pursue those pilot projects.
    I have no more questions. I thank all three of you, very, 
very, very much.
    I somewhat apologize to you, Judge Marvel and Ms. Ashford, 
for all the questions that you did not get. That is a double-
edged sword. But you have learned a lot about Customs and 
Border Protection.
    So, if there are any litigants who appear before you, you 
are going to have a good background on what they are doing or 
not doing, et cetera.
    But thank you very much. The American people really 
appreciate all that you do. They probably do not appreciate it 
enough, do not know how hard you work and how creative, say, 
you are, Judge Marvel, in your courtroom and in fashioning 
remedies that make a lot of sense and in being very sensitive 
to the litigants so you find the proper result.
    So I just thank you for that.
    I know, Ms. Ashford, you are going to do the same thing, 
and you are all just very bright, very intelligent, very 
capable, very dedicated people.
    Just to speak on behalf of my State of Montana, the people 
whom I represent--and I think I can speak on behalf of others 
in the country--just thank you so, so much for your work and 
for the work you are about to undertake.
    I think the most noble human endeavor is service. Each of 
us serves in different ways: family, friends, local community. 
It is service--that is what really distinguishes, I think, each 
of us as a person, and it is so important to our country.
    People serve in different capacities, and you have all 
served in many capacities, and that seems to be your calling. 
On behalf of a lot of people, I just thank you very much for 
that dedication.
    I know you are going to set a great example, the role model 
you are going to provide, so just thank you so much.
    I know, I am just looking at you, Ms. Ashford, and I see 
your aunt over here, and she must have been a great role model 
for you, let alone your parents and everybody else in your 
life.
    So thank you very much. We are going to try to get you 
reported out of this committee as quickly as possible. I am 
hoping just a matter of--I do not know, but very, very quickly, 
because it is important that you get on the job.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:49 a.m., the hearing was concluded.]



                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             Communication

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
